HHS/OIG, Audit - "Review of Virginia's Compliance With the 'Reimbursement
of State Costs for Provision of Medicare Part D Drugs' Demonstration Project
Requirements," (A-03-07-00001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Virginia's
Compliance With the 'Reimbursement of State Costs for Provision of Medicare Part
D Drugs' Demonstration Project Requirements," (A-03-07-00001)
October 4, 2007
Complete
Text of Report is available in PDF format (200 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to
determine whether the Commonwealth of Virginia complied with the CMS Reimbursement of State Costs for Provision of Part D Drugs
demonstration project requirements related to reimbursed drug claims for full
benefit dual eligible beneficiaries.  Virginia complied with CMSs demonstration
project requirements related to reimbursed drug claims for dual eligible
beneficiaries.  We are not submitting recommendations to Virginia.